Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
United States of America
T: +1 202 263 3000
F: +1 202 263 3300
mayerbrown.com

Andrew J. Pincus
T: +1 202 263 3220
F: +1 202 263 5220
apincus@mayerbrown.com

October 20, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Gadelhak v. AT&T Services, Inc., No. 20-209

Dear Mr. Harris:
The petition for a writ of certiorari in this case was docketed on August 21,
2020. The Court previously approved a request for an extension by respondent AT&T
Services Inc.’s such that its brief in response to the petition is currently due on
October 21, 2020. AT&T respectfully requests an additional 12-day extension, to and
including Monday, November 2, 2020 within which to file its brief in response to the
petition. The extension is necessary to accommodate other matters with pressing
deadlines. Counsel for Petitioner Ali Gadelhak has indicated that petitioner does not
oppose this request.
Thank you for your assistance.
Sincerely,
/s/ Andrew J. Pincus

Andrew J. Pincus
cc (via e-mail): counsel of record for petitioners

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

